__________________________________________________________________

Appendix
__________________________________________________________________

Table of Contents to the Appendix
Second Circuit Opinion, dated October 29, 2020 ....................................................... A 001
Order Denying Motion to Dismiss, March 1, 2018 .................................................... A 014

i

United States v. Clarke, 979 F.3d 82 (2020)

979 F.3d 82
United States Court of Appeals, Second Circuit.
UNITED STATES of America, Appellee,
v.
Fernando CLARKE, Defendant-Appellant.
Docket No. 18-1569-cr
|
August Term, 2019
|
Argued: October 3, 2019
|
Decided: October 29, 2020
Synopsis
Background: Defendant was convicted in the United States
District Court for the Eastern District of New York,
Arthur D. Spatt, Senior District Judge, of two counts of
knowingly transporting child pornography, four counts of
receipt of child pornography, and one count of possession
of child pornography, and was sentenced to 120 months'
imprisonment, followed by five years supervised release, as
well as a fine of $13,682.43, a statutory penalty of $5,000,
and a special assessment of $100. Defendant appealed.

Holdings: The Court of Appeals, Leval, Senior Circuit Judge,
held that:
evidence that defendant knew other users of peer-to-peer filesharing network would have been able to download images
from his computer was sufficient to support his conviction for
transportation of child pornography;
defendant was not entitled to jury instruction requiring proof
of an “active” intention to transport child pornography;
as a matter of first impression, defendant's knowing
participation in file-sharing network constituted knowing
transportation of child pornography;
evidence that defendant intended to share child pornography
was sufficient to support his conviction for transportation of
child pornography;

defendant failed to show he was prejudiced by limitations on
discovery of government software program used to identify
him based on child pornography images he shared;
defendant's sentence was not procedurally unreasonable;
defendant's sentence was not substantively unreasonable; and
defendant failed to show he was indigent, and thus imposition
of fine, mandatory statutory penalty, and special assessment
was warranted.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion; Trial or Guilt Phase Motion or Objection.
*86 Appeal from the United States District Court for the
Eastern District of New York (Spatt, J.)
Attorneys and Law Firms
Allegra Glashausser, Federal Defenders of New York, Inc.,
New York, NY, for Defendant-Appellant Fernando Clarke.
Allen L. Bode (Jo Ann M. Navickas, on the brief), for Seth
DuCharme, United States Attorney for the Eastern District of
New York, Brooklyn, NY.
Before: WALKER, LEVAL, and CARNEY, Circuit Judges.
Opinion
LEVAL, Circuit Judge:
Defendant Fernando Clarke appeals from a judgment of
conviction entered by the United States District Court for
the Eastern District of New York (Spatt, J.) after a jury trial
finding him guilty of several child pornography offenses. The
evidence showed that Clarke downloaded child pornography
files to his computer, employing BitTorrent, an Internet
peer-to-peer file-sharing network, and kept those files in a
folder where they were available to be downloaded by other
users of the network. Government agents identified Clarke's
computer on the network, downloaded child pornography
from his computer to theirs, and on that basis obtained
a search warrant. The search of his computer revealed
thousands of images of child pornography. Clarke was
charged with four counts of receipt of child pornography, one
count of possession of child pornography, and two counts
of transportation of child pornography on the Internet, a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000001

1

United States v. Clarke, 979 F.3d 82 (2020)

means or facility of interstate commerce. The two counts
of transportation were based on two instances in which
government agents downloaded a video file from the
defendant's computer. After trial, *87 Clarke was convicted
of all counts and sentenced to a 120-month prison term.
On appeal, Clarke challenges (1) the evidentiary basis and
jury instructions for his conviction on the transportation
counts; (2) the district court's denial of discovery of the
Government's law enforcement software used to identify him
and to download child pornography from his computer; (3)
the procedural and substantive reasonableness of his sentence.
We affirm his conviction and sentence.

BACKGROUND
In 2015, federal agents of the Department of Homeland
Security's Homeland Security Investigations (“HSI”) unit
were investigating child pornography crimes on Long Island.
Using a software developed for law enforcement use called
“Torrential Downpour,” the agents sought to identify people
who were sharing particular files known to contain child
pornography on the BitTorrent peer-to-peer file sharing
network. The investigation revealed hundreds of illicit files
that were downloaded using an Internet Protocol (“IP”)
address that they traced to Fernando Clarke's residence. On
that basis, the agents obtained a warrant to search Clarke's
home, where, on Clarke's computer, they found thousands
of images and videos depicting the sexual exploitation of
minors.
Clarke had been downloading child pornography on the
Internet since at least 2012, using uTorrent, a program that
runs on the BitTorrent peer-to-peer file sharing network. A
peer-to-peer network allows a user to download files directly
from the computers of other users in the network. In order
to facilitate faster downloads, a peer-to-peer program often
downloads fragments of the desired file from many different
computers on the network. By using such a program to obtain
the files of others on the network, a user makes it possible
for others to obtain his files. See App'x at 54 (Testimony of
Richard Branda) (BitTorrent is “a peer-to-peer network where
a person's computer is able to share files that are on other
people's computer drives and hard drive[s]. And in doing so,
you're opening up your computer to be shared from as well.”).
On uTorrent, as on most BitTorrent programs, any file a user
has downloaded to his computer is automatically accessible to
others on the network when the user's computer is connected

to the Internet. A user's downloaded files are placed in a folder
on his computer where other users of the online network can
download and view them. 1
HSI executed the search warrant at Clarke's home on July
28, 2015 and arrested him that same day. While agents
searched the house, Clarke waived his Miranda rights and
was interviewed by HSI investigator Richard Branda. The
interview was not audio or video recorded, but *88 Branda
and another HSI agent, Debra Gerbasi, took notes. According
to testimony at trial, Clarke admitted that his computer
contained child pornography files, including videos and still
images involving children between the ages of seven and ten.
Clarke and Branda also discussed the functioning of uTorrent.
Branda asked Clarke “if he knew that by using that peer-topeer program, that he was essentially sharing files of child
pornography,” because “his computer was open to others.”
App'x at 55, 87. According to Branda, Clarke responded that
“he knew that that was the case, but it wasn't his intent and
he knew how the peer-to-peer programs work.” Id. at 55.
Clarke also told Branda that he “thought if a file was complete
that he downloaded, that it was not sent back out,” id. at 59,
a statement which the Government portrayed to the jury as
demonstrating that Clarke knew, at the very least, that he was
sharing files while in the process of downloading them.
The Government also introduced circumstantial evidence
tending to show that Clarke, when using the uTorrent
program, could have seen information on his screen showing
him that his files were being downloaded by others. For
example, the analysis of Clarke's laptop showed that Clarke
could have clicked on an “Info” tab while downloading files
and seen how many users were simultaneously receiving the
file from him. There is no evidence, however, that Clarke
accessed the pages displaying such information about the
sharing of his files, nor that uTorrent warned its users that
under the default program settings, the sharing of downloaded
files was automatic.
The superseding indictment that was in effect at trial, filed
on July 19, 2017, charged Clarke in seven counts, including
two counts of “knowingly transport[ing]” child pornography,
in violation of
18 U.S.C. § 2252(a)(1) (Counts One and
Two); four counts of receipt of child pornography, in violation
of 18 U.S.C. § 2252(a)(2) (Counts Three through Six); and
one count of possession of child pornography, in violation
of
18 U.S.C. § 2252(a)(4)(B) (Count Seven). The two
counts of transportation of child pornography are based on

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000002

2

United States v. Clarke, 979 F.3d 82 (2020)

downloads by government agents of two videos from Clarke's
computer in February and April 2015.
Before trial, pursuant to Rule 16 of the Federal Rules
of Criminal Procedure, Clarke requested production of the
Torrential Downpour software used to identify his files.
He sought a copy of the computer software program or
its source code for testing and evaluation. In support of
his discovery motion, Clarke attached a forensic report and
affidavit from an expert, Tami Loehrs. Loehrs stated that
she had investigated the Toshiba laptop that the HSI agents
seized, and found files in a folder on Clarke's external hard
drive that she believed was not accessible to the public
via the BitTorrent network. According to Loehrs, without
having a copy of the software or its source code, she could
not determine whether Torrential Downpour allowed law
enforcement to access non-public information on Clarke's
computer.
The Government opposed the discovery motion, arguing
that the defense expert's claims were premised on a
misunderstanding of how Clarke's uTorrent program worked.
The Government submitted an affidavit from a detective
who had helped develop Torrential Downpour which stated
that when a user downloads files on uTorrent, “each and
every location [on the computer] where a user downloads
file(s) ... becomes ‘publicly shared’,” including when files
are downloaded to external hard drives. Gov. App'x at 97.
The Government also submitted an affidavit from a law
enforcement analyst who tested uTorrent *89 and attested
that files which he downloaded to an external hard drive were
shared with other users. Ruling that Loehrs's expert report was
“insufficient to create an issue as to the software's reliability,”
the district court denied Clarke's discovery request. App'x at

Id. at 434, 440. The district court instructed the jury that it
could find Clarke guilty on the transportation counts “if the
Government proves that the defendant ... knowingly allowed
others to access his computer equipment to obtain the visual
depiction via the internet or file sharing,” Gov. App'x at
230, defining “knowingly” as “voluntarily and intentionally
and not because of accident, mistake or some other innocent
reason.” Id. at 229–30. “It is not necessary,” the district court
emphasized, “for the Government to show that the defendant
personally transported or shipped the depiction.” Id. at 230.
The jury returned guilty verdicts on all counts. The court
sentenced Clarke to 120 months in prison, followed by
five years of supervised release. 3 It also imposed a fine
of $13,682.43, representing the costs that the district court
incurred when Clarke failed to show up for the first day
of trial, along with a $5,000 special assessment required of
nonindigent defendants by statute. See
Clarke then brought this appeal.

DISCUSSION
On appeal, Clarke challenges (1) the sufficiency of the
evidence supporting his conviction on the transportation
counts, as well as the related jury instructions; (2) the
district court's refusal to compel disclosure of the Torrential
Downpour software; and (3) the procedural and substantive
reasonableness of his sentence.
I. The Transportation Counts
Clarke challenges his convictions on Counts One and Two for
transporting illicit files in violation of
(1). That section makes it a crime to

34–35. 2
The case proceeded to trial and, after both sides rested,
Clarke moved for a judgment of acquittal pursuant to
Federal Rule of Criminal Procedure 29, arguing, with
respect to the transportation counts, that he “indicated in
his postarrest statements that he didn't intend to transport
child pornography, that he didn't know he was transporting
child pornography, and there was no evidence from which
the jury could infer such knowledge.” App'x at 423–24.
The district court denied the motion. The court also denied
the defense's request for a jury instruction that, in order
to convict Clarke on the transportation counts, it must
find not only that Clarke knew he was transporting visual
depictions, but also that he “actively intended” to do so.

18 U.S.C. § 3014.

18 U.S.C. § 2252(a)

knowingly transport[ ] ... using any
means or facility of interstate or
foreign commerce ... by any means
including by computer or mails, any
visual depiction, *90 if ... the
producing of such visual depiction
involves the use of a minor engaging in
sexually explicit conduct; and ... such
visual depiction is of such conduct.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000003

3

United States v. Clarke, 979 F.3d 82 (2020)

The two counts correspond to two instances in which
government agents, using the Torrential Downpour software,
downloaded a video file from Clarke's computer in April 2015
(Count One) and February 2015 (Count Two). In both cases,
the agents testified that they downloaded the entirety of the
video file from the single IP address that was then traced to
Clarke's residence.
Clarke's challenge is on three grounds. In his initial appellate
briefs, Clarke raised two challenges. First, he argued that the
Government did not adduce sufficient evidence to allow a jury
to conclude beyond a reasonable doubt that Clarke knew he
was making child pornography files available to other users
18 U.S.C. § 2252(a)(1) (prohibiting
on BitTorrent. See
the “knowing[ ] transport[ation]” of child pornography)
(emphasis added). In support of this point, he argued that
Agent Branda's testimony about Clarke's acknowledgment
of his comprehension of how peer-to-peer networks operate
allowed for the possibility that Clarke came to understand
the automatic sharing function of uTorrent only after Branda
explained it to him.
Second, Clarke argued that the district court erred in refusing
his request to instruct the jury that, to establish Clarke's
guilt for knowingly transporting child pornography, the
Government needed to prove that he “actively intended” to
transport the files.
Third, following oral argument, the Court directed the parties
to submit supplemental briefing on a related question:

Whether the government agent's action
in downloading to a government
computer a file, which the defendant
had placed in a folder on his computer
that was accessible to other users of
a peer-to-peer file sharing network,
constituted a “transport[ing]” by the
defendant within the meaning of
U.S.C. § 2252(a)(1)?

18

See Dkt. No. 83. Clarke argued in response that the files
were transported from his computer to the government
agents' computer only by the agents' conduct, without
participation on his part, and that such transportation of

files by government actors does not satisfy the statutory
requirement of transportation by the defendant.
For the reasons discussed below, we conclude that sufficient
evidence supported the jury's finding of Clarke's knowledge,
that the jury instructions were not erroneous, and that, given
Clarke's prior actions in downloading child pornography on
the BitTorrent file-sharing network and knowingly making
those files available to be acquired by others, Clarke cannot
escape liability for the transportation of his files merely
because the movement of the files was effectuated in part by
government actors requesting downloads from his computer
to theirs.
a. Sufficiency of the Evidence of Clarke's Knowledge
We turn first to whether the Government's evidence was
sufficient to show that Clarke knew that, in downloading the
files to his computer, he was enabling the sharing of his files
with other users. We review challenges to sufficiency of the
evidence de novo,
United States v. Leslie, 103 F.3d 1093,
1100 (2d Cir. 1997), drawing all reasonable inferences in
favor of the Government,
United States v. Kozeny, 667
F.3d 122, 139 (2d Cir. 2011).
Clarke does not challenge the sufficiency of the evidence that
he downloaded child pornography on the BitTorrent network,
*91 nor does he dispute that any files he downloaded would
have automatically been made available to be downloaded
by other users in the network. What he disputes is whether
the evidence was sufficient to establish that he knew that
his downloading of files to his uTorrent folder enabled other
users of BitTorrent to download from his folder, such that the
knowledge requirement of

§ 2252(a)(1) was satisfied.

We conclude that the evidence was sufficient. The evidence
showed that Clarke had used the file sharing network for three
years to download child pornography. According to Agent
Branda's testimony, when he interviewed Clarke, Clarke
stated he understood that, by using the network to download
child pornography from the computers of other BitTorrent
users, he “was essentially sharing files of child pornography,”
and that he “knew how ... peer-to-peer programs work.”
App'x at 55. He added, according to Branda's notes, that he
agreed with Branda's statement that “his computer was open
to others.” App'x at 87. 4

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000004

4

United States v. Clarke, 979 F.3d 82 (2020)

Clarke counters that the Branda testimony is insufficient
evidence of Clarke's knowledge because, especially as
presented in Branda's contemporaneous notes, it allows for
the possibility that “[Branda] himself may have explained
to Mr. Clarke how uTorrent worked before Mr. Clarke said
anything about his own understanding of how uTorrent
worked.” Def.'s Br. at 22 (emphasis in original). Clarke made
the same argument to the jury in summation. Clarke is correct
that one permissible inference from Branda's testimony is
that Clarke came to understand the operation of the program
only after the agents explained it to him. But that is not the
only permissible inference, and it is one the jury apparently
rejected. We must credit inferences that the jury could
reasonably have drawn in the Government's favor.
United
States v. Hassan, 578 F.3d 108, 126 (2d Cir. 2008). We
therefore find legally sufficient evidence that Clarke had
knowledge, at the time of his offense, that by downloading
the files to his computer through the BitTorrent file-sharing
network and maintaining them in a shared folder, he took
steps that would result in the movement of the files via the
Internet to the computers of others whenever network sharers
downloaded them.
b. Alleged Error in the Jury Instructions
Clarke next urges that we find error in the district court's jury
instructions. The court refused to deliver Clarke's requested
jury charge that, to convict on the transportation counts, the
jury needed to find that Clarke “actively intended to transport
the visual depiction.” Def.'s Br. at 37 (emphasis added). He
argues that an active-intent instruction was necessary in this
case because, even if sufficient evidence established Clarke's
knowledge of how uTorrent worked, “there was no evidence
that he took any active steps to share child pornography, and
he told the agents that he did not intend to share it.” Def.'s Br.
at 33–34.
*92 “A jury instruction is erroneous if it misleads the jury
as to the correct legal standard or does not adequately inform
the jury on the law.”
United States v. Walsh, 194 F.3d
37, 52 (2d Cir. 1999) (internal quotation marks omitted).
We review a district court's refusal to issue a requested jury
instruction de novo. See
United States v. Bah, 574 F.3d
106, 113 (2d Cir. 2009). We will not overturn a conviction by
reason of a trial court's failure to give a jury charge requested
by the defendant unless the defendant shows both that (1)
the charge he requested “accurately represented the law in
every respect,” and (2) the delivered charge, when viewed

as a whole, was erroneous and prejudicial.
United States
v. Nektalov, 461 F.3d 309, 313–14 (2d Cir. 2006) (quoting
United States v. Wilkerson, 361 F.3d 717, 732 (2d Cir.
2004)). Clarke has not carried this burden.
The court's charge accurately represented the law. The court
instructed the jury that the Government needed to prove
beyond a reasonable doubt that the defendant “knowingly
transported a visual depiction in interstate or foreign
commerce,” and that “transportation ... includes knowingly
making child pornography files available to others via the
internet or file sharing.” Gov. App'x at 230. The court further
defined “knowingly” as “voluntarily and intentionally and
not because of accident, mistake or some other innocent
reason.” Id. at 229–30. See Sand et al., 1 Modern Federal
Jury Instructions—Criminal ¶ 3A.01 (2019) (“A person acts
knowingly if he acts intentionally and voluntarily, and not
because of ignorance, mistake, accident, or carelessness.”).
The charge thus included a requirement of intention to
transport and was consistent with the charge requested by the
defendant, except for the defendant's addition of the adverb,
“actively,” as a modifier of the word “intended,” for which
there is no legal basis.
The sole authority on which Clarke based his proposed
instruction requiring an “active” intention to transport was
a subsequently vacated district court opinion concluding
that distribution of child pornography under
§ 2252(a)(2)
requires “an active intention to give or transfer a specific
visual depiction to another person and ... active participation
in the actual delivery.” See

United States v. C.R., 792 F.

Supp. 2d 343, 355 (E.D.N.Y. 2011). 5 We vacated the decision
on other grounds, see
United States v. Reingold, 731 F.3d
204 (2d Cir. 2013), but held that for the purposes of the
sentencing enhancement for distributing child pornography
at
U.S.S.G. § 2G2.2(b)(3)(F), “knowingly placing child
pornography files in a shared folder on a peer-to-peer
file-sharing network constitutes distribution.”

Id. at 229

(quoting
United States v. Farney, 513 F. App'x 114, 116
(2d Cir. 2013) (summary order)). Clarke has pointed to
no other authority supporting his formulation, and he has
failed to explain his proposed distinction between “active”
and “passive” intent. To the extent Clarke's instruction
would require more active participation in the transfer itself,
numerous courts of appeals have held that knowingly making
child pornography available to be downloaded *93 by others

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000005

5

United States v. Clarke, 979 F.3d 82 (2020)

constitutes “distribution” under
§ 2252(a)(2), with no
additional requirement of any activity by the defendant to
transfer illicit files or to participate actively in their transfer.
See infra pt. I(c). Clarke has thus failed to carry his burden
to show that his requested instruction “accurately represented
the law in every respect.”
(quoting

Nektalov, 461 F.3d at 314

Wilkerson, 361 F.3d at 732).

c. Whether Clarke's Actions Amounted to “Transportation”
We next consider the related question discussed in the
parties' postargument supplemental briefs: whether Clarke's
actions fell short of “transportation” within the meaning of
§ 2252(a)(1), even assuming that he acted knowingly,
understanding that his files were accessible to other users
through the BitTorrent network.

other network users, and maintaining his folder's connection
to the network, Clarke himself performed actions that would
constitute the crime of knowing transportation of the files
when, as anticipated, another user of the file-sharing network
caused the files to be downloaded and sent from his computer
to the other user's computer. Cf. Chiaradio, 684 F.3d at 282
(1st Cir. 2012) (“A rational jury could conclude, as this jury
did, that the defendant intentionally made his files available
for the taking and that [the undercover agent] simply took him
up on his offer.”).
No precedents of our court have addressed the precise
question before us. We have on one occasion in a
brief summary order upheld a defendant's conviction for
transporting child pornography when an undercover agent
downloaded files from the defendant's file servers. See United
States v. Genao, 224 F. App'x 39 (2d Cir. 2007) (summary
order). 7 Other courts of appeals have upheld transportation

Section 2252(a)(1) prohibits “knowingly transport[ing]”
child pornography “using any means or facility of interstate
or foreign commerce ... by any means including by computer

convictions under
§ 2252(a)(1) under similar factual
circumstances, but none have explicitly considered the

or mails.”
18 U.S.C. § 2252(a)(1). The use of the Internet
to move video files from Clarke's computer to the government
agents' computer constituted transportation using a means
or facility of interstate commerce within the meaning of

A number of our sister circuits have rejected similar
challenges to prosecutions for distributing child pornography

§ 2252(a)(1). 6 Clarke argues that it was not he who
transported the files, as it was government agents who caused
the migration of the files. He is correct that there is neither
evidence (nor allegation) that, at the time of the downloading
by the government agents, Clarke took any action or was
aware of the government's downloading.
We disagree, however, with the conclusion that he draws from
that fact. His argument fails to take into account the role of
his own actions and intentions in the transportation of his files
to the computers of other users of the file-sharing network.
Clarke made use of the BitTorrent peer-to-peer file-sharing
network to obtain child pornography files from the computers
of others, knowing that by doing so he was enabling other
users to obtain the files from his computer. Under the court's
instructions, which defined knowingly as “voluntarily and
intentionally,” the jury found that the government agents'
downloads of the files Clarke had placed in his shared folder
constituted knowing and intentional transportation of the files
by *94 Clarke. We agree that, in those circumstances, by
knowingly and intentionally joining the file-sharing network,
downloading files from the computers of other network users
to his own, storing those files in a folder that was shared with

argument made by Clarke in his supplemental briefs. 8

under
§ 2252(a)(2), and have uniformly held that that a
defendant who knowingly makes child pornography available
to be downloaded by others (including undercover law
enforcement officers) on a peer-to-peer file sharing network
has “distributed” within the meaning of the statute. In one
of the first cases to present the issue,
United States
v. Shaffer, 472 F.3d 1219 (10th Cir. 2007), the defendant,
like Clarke, downloaded child pornography files on a peerto-peer network and stored them in a shared folder, from
which a government agent downloaded them from Shaffer's
computer.
Id. at 1222. Shaffer argued that there was
insufficient evidence to convict him of “distributing” child
pornography because he did not “actively transfer possession
to another,” and was merely a “passive participant” in the
agent's downloads. Id. at 1223. Writing for the panel, thenJudge Gorsuch rejected that argument, likening Shaffer to the
owner of a self-serve gas station:

The owner may not be present at
the station, and there may be no
attendant present at all. And neither

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000006

6

United States v. Clarke, 979 F.3d 82 (2020)

the owner nor his or her agents may
ever pump *95 gas. But the owner
has a roadside sign letting all passersby
know that, if they choose, they can
stop and fill their cars for themselves,
paying at the pump by credit card.
Just because the operation is selfserve, or in Mr. Shaffer's parlance,
passive, we do not doubt for a
moment that the gas station owner
is in the business of “distributing,”
“delivering,”
“transferring”
or
“dispersing” gasoline.

Id. at 1223–24.
Shaffer's reasoning to
Subsequent courts have adopted
uphold convictions for distributing child pornography on
similar facts. See, e.g.,
United States v. Budziak, 697
F.3d 1105, 1109 (9th Cir. 2012) (“[E]vidence is sufficient to
support a conviction for distribution under
18 U.S.C. §
2252(a)(2) when it shows that the defendant maintained child
pornography in a shared folder, knew that doing so would
allow others to download it, and another person actually
downloaded it.”);
Chiaradio, 684 F.3d at 282 (when “an
individual consciously makes files available for others to take
and those files are in fact taken, distribution has occurred,”
even if “the defendant did not actively elect to transmit” the
files);
United States v. Richardson, 713 F.3d 232, 236 (5th
Cir. 2013) (“[D]ownloading images and videos containing
child pornography from a peer-to-peer computer network and
storing them in a shared folder accessible to other users on the
network amounts to distribution.”); see also United States v.
Collins, 642 F.3d 654, 656 (8th Cir. 2011);

United States v.

Pirosko, 787 F.3d 358, 368 (6th Cir. 2015);
v. Ryan, 885 F.3d 449, 453 (7th Cir. 2018).

United States

9

We recognize that these distribution precedents are not
squarely pertinent to the transportation statute. “Distribution”
and “transportation” are different, in a manner that can
be significant for Clarke's argument, as distribution can
be accomplished by mere transfer of ownership without
movement from one place to another. The logic of these
cases is nonetheless consistent with our conclusion that when

Clarke downloaded child pornography files on a peer-to-peer
file-sharing network, knowing that his own downloading of
files and storing them in a shared folder enabled others to
download those files to their computers, the downloading by
other users of the network completed Clarke's commission of
the offense of transporting child pornography.
In this case, the jury found beyond a reasonable
doubt that Clarke, by using the file-sharing program,
“knowingly” allowed others to access his computer to
obtain child pornography, see supra pt. I(a), and therefore
necessarily found under the court's instructions that he
did so “intentionally,” see supra pt. I(b); see also Gov.
App'x at 230 (defining “knowingly” and “voluntarily and
intentionally”). 10 By wittingly participating in a file-sharing
network and downloading files from the computers of others,
Clarke implicitly invited other participants in the file-sharing
network *96 to share his files, and enabled them to do so.
See App'x at 54 (Testimony of Branda) (BitTorrent is “a peerto-peer network where a person's computer is able to share
files that are on other people's computer drives and hard
drive[s]. And in doing so, you're opening up your computer
to be shared from as well.”); id. at 87 (Clarke told Branda he
“kn[e]w how peer to peer programs work.”).
The fact that the movement of the files was effectuated
in part by the Government's downloads without Clarke's
awareness does not alter our conclusion. Clarke intentionally
obtained child pornography through what he knew to be a
file-sharing network, in which the transportation of child
pornography from his computer to other users was an
almost inevitable consequence and indeed the very objective
of the network. Under these circumstances, Clarke has
“transport[ed]” child pornography within the meaning of

§

2252(a)(1). Cf.
Chiaradio, 684 F.3d at 282 (“The fact
that the defendant did not actively elect to transmit [the
child pornography] files is irrelevant” to his conviction for
distribution under
§ 2252(a)(2));
Shaffer, 472 F.3d at
1223 (the defendant distributed child pornography in the
sense of having “transferred” it to others because even though
he did not “actively push[ ] pornography on [other] users [of
the peer-to-peer network], ... he freely allowed them access
to his computerized stash of images and videos and openly
invited them to take, or download, those items”).
Clarke maintains that there is no evidence that he “intended”
to share child pornography, pointing to Agent Branda's
testimony that Clarke had stated that it was “not his intention”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000007

7

United States v. Clarke, 979 F.3d 82 (2020)

to share child pornography, but only to obtain it for himself.
See App'x at 86. This statement confuses motivation with
intention. When one makes an agreement to buy a desired
object for $100, it is likely not the buyer's motivating
objective to rid himself of $100. The motivation is rather to
acquire the desired object. Nonetheless, the buyer intends that
both aspects of the transaction take place—his acquisition
of the object and his payment of the price. Similarly, when
one avails oneself of a peer-to-peer file-sharing network
to acquire files, knowing that it functions on the basis of
allowing users to access each other's files, one is likely
to be motivated only by the acquisition of files from the
computers of others. Nonetheless, we have held that “a
jury may conclude that an actor intended [the] foreseeable
consequences of his actions.”
F.3d 164, 197 (2d Cir. 2002).

United States v. Nelson, 277

The jury apparently found based on sufficient evidence that
Clarke availed himself of the BitTorrent network knowing full
well that doing so meant that he was allowing other users
to download files from his computer. In storing those files
on his computer in a folder that allowed other users of the
network to download copies to their computers, he went far
towards transporting his files to the computers of unknown
others, which offense was completed when the files moved
from his computer to theirs. The fact that Clarke knew neither
who was downloading his files, nor when it was occurring,
is irrelevant, as he knew that this was how the network
functioned. We are therefore satisfied that, because Clarke
knew he was sharing child pornography files on a file-sharing
network, he cannot escape liability for the transportation of
those files when it occurred. Under these circumstances, we
conclude that when the illicit files moved from his computer
to the agents' upon their requests to download, that completed
Clarke's commission of the transportation offenses charged in
Counts One and Two. *97 The evidence was sufficient to
prove his guilt.
II. Discovery of the Torrential Downpour Software
Clarke next argues that it was an abuse of discretion for
the district court to deny him production of the Torrential
Downpour program and its source code because that software
provided the “bulk of the evidence” for his conviction on the
transportation counts and also provided the justification for
the search warrant that discovered the evidence underlying all
the counts. Def.'s Br. at 23, 28. We disagree.

We review “a district court's discovery rulings for abuse of
discretion.”
Moll v. Telesector Res. Grp., Inc., 760 F.3d
198, 204 (2d Cir. 2014). The Government must “permit the
defendant to inspect” any item that is “material to preparing
the defense.” Fed. R. Crim. P. 16(a)(1)(E)(i). Evidence is
material “if it could be used to counter the government's case
United States v. Stevens, 985 F.2d
or to bolster a defense.”
1175, 1180 (2d Cir. 1993). To obtain discovery under Rule 16,
a defendant must make a prima facie showing of materiality.
See
United States v. Maniktala, 934 F.2d 25, 28 (2d Cir.
1991); United States v. Mandel, 914 F.2d 1215, 1219 (9th
Cir. 1990) (“Neither a general description of the information
sought nor conclusory allegations of materiality suffice; a
defendant must present facts which would tend to show that
the Government is in possession of information helpful to
the defense.”). We have stated that we will order a new trial
on account of the denial of discovery only if there is “some
indication that the pretrial disclosure of the disputed evidence
would have enabled the defendant significantly to alter the
quantum of proof in his favor.”
Stevens, 985 F.2d at 1180
(internal quotation marks omitted).
We recognize that, when a defendant's guilt is predicated
on the government offering proof that a government
agent downloaded files from the defendant's computer,
information about the program by which the downloading
was accomplished is likely to be “material to preparing the
defense” and therefore subject to disclosure under Fed. R.
Crim. P. 16(a)(1)(E)(i), so as to enable the defendant to
challenge the government's proof. See Pirosko, 787 F.3d at
366 (the Government does not have “a blank check to operate
its file-sharing detection software sans scrutiny”); see also
Rebecca Wexler, Life, Liberty, and Trade Secrets: Intellectual
Property in the Criminal Justice System, 70 STAN. L. REV.
1343, 1403–07 (2018). Here, the Government did provide
Clarke with considerable information about the operation of
the program, short of turning over the program itself and its
source code. The Government's disclosures included copies
of the files downloaded by the agents (as well as forensic
images of the corresponding data recovered on Clarke's
computer equipment), over 200 pages of data logs detailing
the agents' downloads of files from his computer, a “forensic
report” of the computer equipment seized from Clarke, and
an in-person demonstration of how Torrential Downpour
operated. This evidence showed, among other things, that the
video files on the agents' computer, purportedly downloaded
from the defendant's computer by use of the Torrential

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000008

8

United States v. Clarke, 979 F.3d 82 (2020)

Downpour program, exactly matched files later recovered
from Clarke's computer equipment. The Government's reason
for opposing further disclosure was a substantial one—access
to the material withheld would have enabled traffickers in
child pornography to avoid detection by altering or avoiding
the files that law enforcement was searching for. It would also
enable those seeking child pornography to *98 find those
files that had been identified by the Government.
Ultimately, we need not decide whether the Government's
reasons for withholding disclosure outweighed Clarke's
need for it because, even assuming a violation of Clarke's
entitlement to discovery, Clarke has not demonstrated that
Stevens, 985 F.2d at
he suffered prejudice as a result. See
1180; United States v. Sanchez, 912 F.2d 18, 21 (2d Cir. 1990)
(in the event of a Rule 16 violation, “reversal will only be
warranted if the nondisclosure results in substantial prejudice
to the defendant”). Clarke's argument to the district court
for why disclosure of the software and its source code was
necessary for his defense (in addition to the other pertinent
discovery provided above) was premised on an assumption
made by his expert that, because the child pornography files
accessed by the government agents were located on Clarke's
external hard drive, rather than his computer's hard drive,
the files “would not have been publicly available on the
BitTorrent network” and therefore that Clarke's computer
could not have shared or transported them. Gov. App'x at 38–
39 (Affidavit of Tami Loehrs). Accordingly, Clarke argued,
access to Torrential Downpour and its source code was
necessary for him to show that the government agents could
not have downloaded Clarke's child pornography files over
the open BitTorrent network.
The Government, however, persuasively countered Loehrs's
assertions with evidence that the district court was entitled
to credit. The Government's evidence showed that, unlike
some other peer-to-peer programs, uTorrent prompts the user
to choose “a location to save the downloaded files” before
initiating a download. Gov. App'x at 97 (Affidavit of Robert
Erdely). The “user can specify any location on a computer” or
on “an external hard drive.” Id. Critically, whatever location
is specified by the user as the destination for the downloaded
files becomes accessible to other users of the network,
regardless of whether that folder is on the computer itself or
on an external hard drive. 11 Additionally, the Government
submitted evidence showing that files downloaded and
saved to an external hard drive by a Department of Justice
investigative analyst, using the same version of uTorrent
used by Clarke, were accessed by other BitTorrent users.

This evidence refuted Loehrs's assumption that files saved
on external hard drives were not accessible to other users of
BitTorrent, and the district court reasonably concluded that
Loehrs's speculation was “insufficient to create an issue as
to the [Torrential Downpour] software's reliability.” App'x at
33. 12 There is thus no *99 indication, given the extensive
disclosures that were made to Clarke, that he was in any
way prejudiced by the district court's denial of his demand
for disclosure of the program itself and its source code. See
Stevens, 985 F.2d at 1180. If the initial denial was error,
Clarke has failed to make any showing that he suffered harm
as a result.
II. Challenges to Clarke's Sentence
Clarke argues that both the term of imprisonment imposed and
the monetary penalties assessed were unreasonable. When
reviewing sentences, we apply “a particularly deferential
form of abuse-of-discretion review,” and will not vacate
a sentence unless it is either procedurally or substantively
unreasonable. See
United States v. Cavera, 550 F.3d 180,
187–89 & n.5 (2d Cir. 2008). A district court errs procedurally
when it: (1) “fails to calculate the Guidelines range”; (2)
“makes a mistake in its Guidelines calculation, or treats the
Guidelines as mandatory”; (3) “does not consider the [ 18
U.S.C.] § 3553(a) factors”; (4) “rests its sentence on a clearly
erroneous finding of fact”; (5) “fails adequately to explain its
chosen sentence”; or (6) deviates from the Guidelines range
it calculated without explanation.
Id. at 190. A sentence
is substantively unreasonable “only ... where the trial court's
decision cannot be located within the range of permissible
decisions.”

Id. at 189 (internal quotation marks omitted).

a. Term of Imprisonment
First, Clarke asserts that his sentence was procedurally
unreasonable because the district court did not adequately
consider that (1) the Sentencing Guidelines' child
pornography enhancements are excessive, and (2) Clarke's
conduct was typical of ordinary child pornography cases.
This position is inconsistent with the record and the law. The
record establishes that the district court correctly calculated
the Guidelines range of 210 to 262 months, considered each of
the § 3553(a) factors, and explained its sentence, including
its conclusion that the Guidelines range was excessive and its
decision to depart downward from that range.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000009

9

United States v. Clarke, 979 F.3d 82 (2020)

Clarke insists that the district court committed procedural
error by “fail[ing] to appropriately consider the teaching

collection of child pornography were sadistic videos of
children being abused. Moreover, in its consideration of the

United States v. Dorvee, 616 F.3d 174 (2d Cir.
of”
2010). Def.'s Br. at 41. In that case, we criticized the
child pornography Guideline as one frequently leading to

§ 3553(a) factors, the district court recognized that Clarke
had never manufactured child pornography or had physical
contact with children, and that he has no criminal record. On
this record, we see no basis to conclude that the sentence was
procedurally unreasonable.

“unreasonable results,”
id. at 188, because the application
of its enhancements “routinely result[s] in Guidelines
projections near or exceeding the statutory maximum, even in
id. at 186. Clarke thus asserts that
run-of-the-mill cases,”
the district court committed procedural error in applying the
child pornography enhancements provided by the Guidelines.
This argument misunderstands the “teaching of
In

Dorvee.”

Dorvee, we did not impose a heightened standard for

the application of
§ 2G2.2 enhancements in individual
cases. Rather, we were concerned with the substantive
reasonableness of even those sentences that resulted from
adherence to the prescribed Guidelines range. Indeed, in
Dorvee itself, we determined that the sentencing court
§ 2G2.2 enhancements, *100
had properly applied the
concluding that the court committed procedural error only
in its separate error of failing to recognize that a statutory
maximum limited the applicable Guidelines range.
180–81.

Id. at

Here, the district court concluded that the prescribed
Guidelines calculation led to excessive results. See App'x at
498 (“The guideline range is excessive and I'm not going to
use it.”). In doing so, the district court explicitly considered
Dorvee. The court explained that “in the four or five
cases following

Dorvee, the[ ] [Second Circuit] ha[s]

kept these guidelines and reduced the sentences.”
Id.
The district court then discussed Clarke's background and
personal characteristics, as well as the nature of his crimes,
in accurately calculating the applicable Guidelines range, but
thereafter departing downward from it.
Clarke further asserts that the district court committed
procedural error by “repeated[ly] emphasi[zing] that it
thought Mr. Clarke's conduct was of the ‘worst kind,’
when it was actually typical of an ordinary first-time child
pornography case.” Def.'s Br. at 41. In fact, the court
described the child pornography content, not the defendant's
conduct, as “of the worst kind.” App'x at 493, 497. This
was a justifiable conclusion: included in Clarke's extensive

Next, Clarke contends that his sentence was substantively
unreasonable because it failed to take into account Clarke's
history and characteristics and was greater than necessary to
meet the purposes of sentencing as set forth in
§ 3553.
This argument likewise fails. The record refutes Clarke's
contention that the district court failed to give thoughtful
consideration to Clarke's history and characteristics, or to
explain why the sentence was necessary for deterrence and/or
punishment. To the contrary, the record instead demonstrates
that the district court considered and applied the § 3553(a)
factors and took into account Clarke's job as a corrections
officer and his lack of criminal history. 13 The sentence
imposed—of 120 months in custody—was 90 months below
the bottom end of the Guidelines range. This sentence stands
in marked contrast to the sentences of 240 months and
225 months, respectively, which we vacated as substantively
unreasonable in

Dorvee and

United States v. Jenkins,

854 F.3d 181 (2d Cir. 2017). 14 We see no basis *101 to
conclude that Clarke's sentence is substantively unreasonable.
b. Monetary Penalties
In addition to his prison term, Clarke was further ordered
to pay a fine of $13,682, representing the costs incurred
because Clarke failed to show up for the first day of trial
due to a purported medical need. The court also directed that
Clarke pay a $5600 assessment, constituting of a mandatory
$5000 penalty “on any non-indigent person or entity” under
the Justice for Victims of Trafficking Act, see
18 U.S.C.
§ 3014, and an $100 special assessment on the remaining
six counts. Clarke challenges these monetary sanctions on
the grounds that Clarke is indigent, as indicated by the
appointment of the federal defenders to represent him.
We have observed that, “[i]f the defendant is indigent, a fine
should not be imposed absent evidence in the record that he
will have the earning capacity to pay the fine after release
from prison.”

United States v. Rivera, 971 F.2d 876, 895

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000010 10

United States v. Clarke, 979 F.3d 82 (2020)

(2d Cir. 1992). When making an indigency determination, a
district court “may consider both defendant's present financial
resources and those that may become available in the future.”
United States v. Salameh, 261 F.3d 271, 276 (2d Cir. 2001).
The record here reflects that Clarke: (1) receives $1,100 each
month in pension payments (payments that will continue even
while he is in prison); (2) owns at least one home; and (3) can
expect social security payments to resume upon his release
from custody. While not explaining why it found Clarke
to be nonindigent despite his representation by the Federal
Defenders, the court promised “to have a separate hearing on
that, if necessary.” App'x at 462; see also App'x at 465 (stating
again that, if Clarke wanted “a hearing on that [indigency]

issue,” the district court would grant one post-sentence).
There is no indication that Clarke sought such a hearing, nor
that he requested amendment of the judgment. Accordingly,
we will not disturb the monetary aspect of Clarke's sentence.

CONCLUSION
For the foregoing reasons, we AFFIRM Clarke's conviction
and sentence.
All Citations
979 F.3d 82

Footnotes
1

2

3

For a general description of peer-to-peer networks, see
Metro-Goldwyn-Mayer Studios Inc. v. Grokster,
Ltd., 545 U.S. 913, 919–20, 125 S.Ct. 2764, 162 L.Ed.2d 781 (2005) (In a peer-to-peer network, “users'
computers communicate directly with each other, not through central servers. ... Because they need no
central computer server to mediate the exchange of information or files among users, the high bandwidth
communications capacity for a server may be dispensed with, and the need for costly server storage space
is eliminated. Since copies of a file (particularly a popular one) are available on many users' computers,
file requests and retrievals may be faster than on other types of networks, and since file exchanges do not
travel through a server, communications can take place between any computers that remain connected to
the network without risk that a glitch in the server will disable the network in its entirety. Given these benefits
in security, cost, and efficiency, peer-to-peer networks are employed to store and distribute electronic files
by universities, government agencies, corporations, and libraries, among others.”).
Although the Government did not disclose Torrential Downpour or its source code, it provided Clarke with a
forensic report and data logs with details of the government agents' downloads, and provided a demonstration
of the software to Clarke and his counsel.
Clarke's 120-month sentence consists of (1) two concurrent 60-month terms for the transportation counts
pursuant to
to

18 U.S.C. § 2252(a)(1); (2) four concurrent 60-month terms for the receipt counts pursuant

18 U.S.C. § 2252(a)(2), which together run consecutively to the sentence on the transportation counts;

and (3) a concurrent 36-month term on the possession count pursuant to
18 U.S.C. § 2252(a)(4)(B).
Transportation and receipt of child pornography each carry a mandatory minimum sentence of five years, but
do not require that the sentences run consecutively. See
4

18 U.S.C. § 2252(b)(1).

These facts are sufficient to distinguish this case from
United States v. Carroll, 886 F.3d 1347 (11th
Cir. 2018), on which Clarke relies. In that case, the Government argued that the defendant “was guilty of
knowing distribution simply because he was using a peer-to-peer file sharing program.”
Id. at 1353. The
Eleventh Circuit found insufficient record evidence to prove knowledge because “[n]othing in the record
demonstrate[d] that Carroll ... was even aware that the contents of his [peer-to-peer software] folder were
automatically distributed to the peer-to-peer network.”

Id. (emphasis added). Here, by contrast, the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000011 11

United States v. Clarke, 979 F.3d 82 (2020)

5

Government presented evidence of Clarke's understanding of how uTorrent worked, evidence which the jury
apparently credited.
The issue arose in C.R. because the district court questioned whether the defendant's guilty plea should be
accepted in view of the fact that, in the district court's opinion, the defendant's failure to allocute to having
intended for any specific person to receive the child pornography, coupled with the fact that he had not
“actively transmitted the material” to another person, meant that he had not committed the crime. Id. at 354.
Despite having expressed this view, the court ultimately accepted the guilty plea, and in so doing, apparently

6

§
repudiated the court's previously expressed view that “active intention” is required for a conviction under
2252(a)(2).
To “transport” means to move something from one place to another. See Transport, THE MERRIAMWEBSTER DICTIONARY, http://merriamwebster.com/dictionary/transport (last visited Aug. 19, 2020)
(defining “transport” as “to transfer or convey from one place to another.”). Under § 2252, child pornography
can be “transport[ed]”—that is, moved from one place to another—electronically via the internet. See, e.g.,
United States v. Delmarle, 99 F.3d 80, 82 (2d Cir. 1996) (defendant who pled guilty to violating
(1) admitted sending images to others via email);

§ 2252(a)

United States v. Tenuto, 593 F.3d 695, 697 (7th Cir.

2010) (defendant transported child pornography by sending an email with the illicit image attached); United
States v. Napier, 787 F.3d 333, 345-346 (6th Cir. 2015) (same).
The interstate commerce element of the statute is satisfied by the use of the internet to transmit the files.
See Gov. App'x at 231 (jury instructions) (“Transmission of photographs or video by means of the internet
constitutes transportation in or affecting interstate commerce.”); accord. United States v. Harris, 548 F. App'x
679, 682 (2d Cir. 2013) (summary order);
United States v. Chiaradio, 684 F.3d 265, 281 (1st Cir. 2012)
(“The government's proof of the jurisdictional element is rock solid: the illicit files traveled via the Internet
and, thus, traveled in interstate commerce.”);

7

8

9

United States v. MacEwan, 445 F.3d 237, 243–44 (3d Cir.

2006) ( Section 2252's jurisdictional element is satisfied when child pornography is transmitted over the
internet, regardless of whether it actually crosses state lines, because the internet is an instrumentality and
channel of interstate commerce).
Genao had argued that it was the Government, rather than he, who transported the files, noting that he was
sleeping while the government agent completed the downloads. See Br. for the United States, United States
v. Genao, 2006 WL 4847015, at *27–28. We rejected that argument, finding it immaterial that the defendant
“was not physically sitting in front of his computer and directly interacting with the undercover agent who
downloaded these files from his server.” Genao, 224 F. App'x at 40. The Genao ruling, however, presented
a somewhat different factual scenario from the instant case. In that case, Genao, unlike Clarke, had actively
advertised on an internet chat room that he was seeking to exchange child pornography and had created
and operated file servers from which others could download child pornography if they uploaded files of their
own. Br. for the United States, 2006 WL 4847015, at *2-4, *32.
See United States v. Stefanidakis, 678 F.3d 96, 98 (1st Cir. 2012); United States v. Schade, 318 F. App'x
91, 94–95 (3d Cir. 2009); United States v. Clifton, 587 F. App'x 49, 50 (4th Cir. 2014) (per curiam); United
States v. Keshler, 769 F. App'x 169, 170 (5th Cir. 2019) (per curiam);
United States v. Nance, 767 F.3d
1037, 1038 (10th Cir. 2014).
Similarly, appellate courts, including ours, have also held that a defendant who knowingly makes child
pornography available to be downloaded by other users on a peer-to-peer network is eligible to receive the
sentencing enhancement for “distributing” child pornography under
Reingold, 731 F.3d at 229–30;

U.S.S.G. § 2G2.2(b)(3)(F). See, e.g.,

United States v. Layton, 564 F.3d 330, 335 (4th Cir. 2009);

States v. Conner, 521 F. App'x 493, 500 (6th Cir. 2013);

United

United States v. Carani, 492 F.3d 867, 876 (7th

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000012 12

United States v. Clarke, 979 F.3d 82 (2020)

10
11

12

Cir. 2007); United States v. Glassgow, 682 F.3d 1107, 1110 (8th Cir. 2012); United States v. Ramos, 695
F.3d 1035, 1041 (10th Cir. 2012).
We do not suggest that, in all cases, “knowingly” and “intentionally” will mean the same thing.
This description of how uTorrent operates is further supported by expert testimony adduced at trial. See App'x
at 399 (Trial Testimony of Dero Tucker) (explaining that uTorrent does not have “a specific folder or one single
folder to place complete downloads,” but rather “allow[s] the user to specify” where to save downloaded files).
In reaching this conclusion, we note that the facts of this case differ significantly from those presented in
Budziak, 697 F.3d at 1105, which Clarke invokes in support of his materiality argument and in which
the Ninth Circuit ordered the Government to disclose a similar software program.
Budziak involved a
charge for distribution of child pornography that was premised on files that the Government downloaded from
the defendant's computer remotely, using a peer-to-peer investigative tool.

Id. at 1107. The defendant in

Budziak presented specific evidence that the investigating officer may have downloaded only fragments of
child pornography, and those fragments came only from the defendant's “incomplete” folder, making it “more
Id. at 1112. The
likely” that the defendant did not transmit any complete child pornography files to agents.
Ninth Circuit's holding depended on the defendant's “evidence suggesting that the materials disclosed by
the FBI did not resolve all questions relevant to his defense.”
Id. at 1112 n.1. Here, by contrast, Clarke
pointed only to Loehrs's persuasively refuted speculation about errors in the government software, which was

13

14

insufficient to require the district court to compel disclosure. See
Pirosko, 787 F.3d at 366 (defendant's
conclusory allegation that he did not know how the investigative peer-to-peer software worked was insufficient
to “overcome the numerous facts supporting the government's position that it legitimately obtained child
pornography from Pirosko's shared folders.”).
Specifically, the district court noted that Clarke: (1) possessed “28,715 images and 77 videos of child
pornography, of the worst kind”; (2) “has some good things in his life,” including “no criminal history” and
never having been “in trouble before” and “he has been a corrections officer”; (3) may have “ruined” the lives
of “[l]ittle children”; (4) “never manufactured” child pornography, but created a market for it; and (5) never
accepted responsibility for the offense. App'x at 491–508.
Comparison to other sentences is also instructive. In United States v. Butler, we affirmed an 87-month
sentence on a defendant who was convicted only of receipt and possession of child pornography (and not of
distribution or transportation); the defendant furthermore had engaged in that misconduct for only a year. 733
F. App'x 565, 566–67 (2d Cir. 2018) (summary order). And in United States v. Gill, we affirmed a 121-month
sentence for receipt of child pornography using a peer-to-peer program. 739 F. App'x 75, 76–77 (2d Cir.
2018) (summary order). Clarke's circumstances are not of the “exceptional” sort that justifies our substitution
of our own judgment for that of the district court. See United States v. Ingram, 721 F.3d 35, 37 (2d Cir. 2013)
(per curiam).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A000013 13

210
1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

2
3
4

-------------------------------X
UNITED STATES OF AMERICA,
:

5

-against-

:

6

FERNANDO CLARKE,

7

:
Defendant.
-------------------------------X

CR-15-426
(ADS)
United States Courthouse
Central Islip, New York
March 1, 2018
9:30 a.m.

8
9

TRANSCRIPT OF TRIAL
BEFORE THE HONORABLE ARTHUR D. SPATT
UNITED STATES DISTRICT COURT JUDGE, and a jury.

10
11

APPEARANCES:

12

For the Government:

RICHARD P. DONOGHUE, ESQ.
UNITED STATES ATTORNEY
BY: ALLEN BODE, AUSA
LAUREN KUPERSMITH, ESQ.
100 Federal Plaza
Central Islip, New York 11722

For the Defendant:

LAKEYTRIA FELDER, ESQ.
MICHAEL WEIL, ESQ.
Federal Public Defenders
770 Federal Plaza
Central Islip, New York 11722

13
14
15
16
17
18
19
20
21
22

Official Court Reporter:
Ph. (631) 712-6106
Fax (631) 712-6122

Paul J. Lombardi, RMR, FCRR
100 Federal Plaza - Suite 1180
Central Islip, New York 11722

23
24
25

Proceedings recorded by mechanical stenography.
Transcript produced by CAT.
Paul J. Lombardi, RMR, FCRR
Official Court Reporter

A000014

431
1

We will now recess until 10 a.m. on Monday,

2

March the 5th.

3

starting on Monday, we will supply lunch to all of you at

4

the expense of the United States District Court.

5

a good appetite for Monday, and you will get lunch every

6

day that you are here deliberating until you reach a

7

unanimous verdict.

8

then.

9

Have a very nice weekend.

By the way,

So keep

We will supply you with lunch until

If you think we are going to get it from

10

Peter Luger Steakhouse, the Polo Grill of the Garden City

11

Hotel, Julius Caesar's Italian Restaurant, forget about

12

it.

13

downstairs, we'll let you order.

14

with lunch Monday.

You are probably going to get it from the cafeteria

15

So go to work tomorrow.

So we will supply you

Catch up on everything

16

you have missed, those of you who are employed.

17

you Monday, March 5th, at 10 am.

18

weekend.

Have a very nice

19

ALL JURORS:

20

THE COURT:

21

(Jury leaves the courtroom.)

22

THE COURT:

23
24
25

We'll see

You too.
Please recess yourselves.

Motions at the end of the

government's case.
MR. WEIL:

Your Honor, the defense moves for a

judgment of acquittal because the government has failed to

A000015

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

432
1

present sufficient evidence to establish the elements of

2

the offenses pursuant to Rule 29.

3

However, without waiving any particularized, any

4

general objection to the proof, the defense has some more

5

specific claims it wishes to present.

6

regard to -- the defense moves for judgment of acquittal

7

on counts one and two, the transportation counts, because

8

the government has presented no evidence that the

9

defendant knowingly transported child pornography.

10

Specifically, in

The defendant in his postarrest statements

11

indicated that he did not realize he was transporting

12

child pornography, that it was not his intention to

13

transport --

14

THE COURT:

15

(There was a pause in the proceedings.)

16

THE COURT:

17

MR. WEIL:

18

I'm sorry.

Go ahead.

Your Honor, the defendant

indicated --

19
20

Hold on one second.

THE COURT:

You want to get to the microphone,

please.

21

MR. WEIL:

Yes.

22

The defendant indicated in his postarrest

23

statements that he didn't intend to transport child

24

pornography, that he didn't know he was transporting child

25

pornography, and there was no evidence from which the jury

A000016

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

433
1

could infer such knowledge.

2

enforcement have knowledge about that is not a basis to

3

infer that a casual user of the software would know that.

4

Also, your Honor, the defense, as you know from

5

our jury instruction, believes that the government has to

6

prove an intent to transport the child pornography, and

7

there is no evidence of that as well.

8

as to the receipt of child pornography counts, there is no

9

evidence that the defendant received a visual depiction

10

portraying a minor engaged in sexually explicit conduct

11

through a facility of interstate commerce.

12

The fact that experts and law

Also specifically

The testimony as to how this program worked,

13

your Honor, how the commercial publicly available version

14

of this program worked indicated that a user of uTorrent,

15

a nonlaw enforcement user of uTorrent received fragments

16

of files from a number of places, and I believe it said

17

the files could be hundreds of pieces, but that a user of

18

this program received fragments of files that were then

19

reconstituted on the user's computer into a visual

20

depiction.

21

defendant did not receive a visual depiction that portrays

22

a minor engaged in sexually explicit conduct.

23

So that indicates, your Honor, that the

The evidence may show that he possessed that

24

because those fragments when reconstituted did become

25

that.

But he is indicted on receipt for receiving a

A000017

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

434
1

visual depiction, portraying a minor engaged in sexually

2

explicit conduct through a facility of interstate commerce

3

and what he received through a facility of interstate

4

commerce was not complete, and it was never shown to the

5

jury what he might have received.

6

Law enforcement, because of their special

7

software, was able to single source through this network

8

and able to obtain, according to the testimony, a visual

9

depiction from one person and so in that case they may

10

have received it.

11

who's not law enforcement could have received a visual

12

depiction in that fashion.

13

judgment of acquittal as to the receipt counts as well,

14

your Honor.

15

But there's no evidence that a user

So on that ground we move for

As I stated earlier, we are also making a

16

general Rule 29 motion for a judgment of acquittal and by

17

making these specific arguments do not intend to waive any

18

of that.

19

MR. BODE:

Your Honor, first as to the two

20

transportation counts, Mr. Clarke used his uTorrent

21

program for years.

22

As we saw today, you can actually, by clicking

23

the tab, see that you are sharing these items with other

24

persons.

25

statement was not as represented by counsel a moment ago.

Moreover, the testimony regarding Mr. Clarke's

A000018

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

435
1

Mr. Clarke didn't say he didn't realize he was sharing.

2

He said he didn't realize after it was completed that he

3

was sharing.

4

The flip side of that exact coin is while it

5

is -- while it's not complete, while he's downloading, he

6

knew he was sharing and he admitted that in his statement.

7

We saw today one of those videos he was downloading for I

8

think it was a day and five hours, and that there were 92

9

people who had accessed that file from him which you can

10

see in the software he was using.

11

For all those reasons, the defense motion on

12

transportation should be denied.

13

argument tomorrow regarding the jury charge on

14

transportation count because counsel did reference it.

15

The defendant is seeking to add an extra element in

16

essence to transportation, to add that it be active

17

transportation and they cite to dicta in a case by

18

Judge Weinstein that was reversed on multiple other

19

grounds by the Second Circuit, this ground was not

20

addressed.

21

I'll preview our

The defense's position on that is contrary to

22

every circuit court who has considered that issue.

In

23

fact, I'll bring the case tomorrow, I didn't bring it with

24

me today, but there was actually a circuit court decision

25

on that very question since we originally were here in

A000019

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

436
1

December for the original trial date, again in favor of

2

the government's argument.

3

As to receipt, your Honor, there is no

4

requirement that there be receipt from one single source.

5

Peer-to-peer cases under the receipt statute have been

6

adjudicated in every circuit at this point.

7

requirement that it be from a single source.

8

clearly was -- every one of these items was received

9

through a facility of interstate commerce because uTorrent

10

THE COURT:

What was the proof of interstate

commerce did you say?

13
14

Moreover, it

operates via the internet, and every court --

11
12

There is no

MR. BODE:

The program used to download these

items, uTorrent, operates on the internet.

15

The internet is a facility of interstate

16

commerce.

The statute -- I can open it up here for a

17

moment.

18

can find the relevant portion, give me one moment.

Title 18, United States Code, Section 2252, if I

19

(There was a pause in the proceedings.)

20

MR. BODE:

2252(a)(2) is the section we are

21

talking about for receipt, but the same jurisdictional

22

basis for interstate commerce is in transportation as

23

well, requires that a person receive a visual, any visual

24

depiction using any means or facility of interstate or

25

foreign commerce.

A000020

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

437
1

It continues on with some -- there's multiple

2

jurisdictional hooks, but that's the jurisdictional hook

3

that counsel referred to here, facility of interstate

4

commerce.

5

internet is a facility of interstate commerce.

6

Congress, when they added that facility of interstate

7

commerce language to the statute in 2008, specifically

8

made findings that the internet was a facility of

9

interstate commerce, and, frankly, international commerce.

10
11

16

THE COURT:

Where are the citations for any of

MR. BODE:

I don't have the citation in front of

me, your Honor, but counsel can dispute that if he wants.

14
15

MR. WEIL:

Just to be clear, that's not the

issue.
We are not disputing that the law says that the

17

internet is a facility of interstate commerce.

18

not my point.

19

Moreover,

that?

12
13

There are substantial body of case law that the

MR. BODE:

That was

So counsel's point, as I interpret it

20

then, is that the defendant can't be -- no defendant can

21

be convicted of downloading a file via a peer-to-peer

22

program which doesn't give him the whole file from a

23

single source.

24
25

That argument, there is no case citation for
that argument because no court has ever held that.

There

A000021

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

438
1

is no requirement in the plain language of the statute

2

that you receive the file from one source.

3

testimony today, you don't need the entire file to begin

4

watching the file.

5

right order you can begin watching it even before you

6

completed the download of the file.

7

We even heard

If you have the right pieces in the

There is no requirement whatsoever that all the

8

pieces come from a single source.

9

come through a facility of interstate commerce, the

10

All the pieces here

internet and, as such, the receipt statute is satisfied.

11

MR. WEIL:

12

THE COURT:

13

MR. WEIL:

Your Honor, may I briefly?
Yes.
On the receipt issue, your Honor, to

14

make it simple I will agree with Mr. Bode that there is no

15

case law on this particular issue concerning fragments

16

that I have raised.

17

or the other on this issue.

18

I haven't seen any case law one way

But to be clear, I'm relying on the plain

19

definition in the statute, as well as the standard jury

20

charge, which indicates that a person is guilty of

21

receiving child pornography if they -- if it was made

22

using a minor engaged in sexually explicit conduct and is

23

of such conduct.

Let me make sure I have that right.

24

(There was a pause in the proceedings.)

25

MR. WEIL:

2252, the statute we are dealing with

A000022

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

439
1

here, makes you guilty if you receive child -- if you

2

receive a visual depiction, the producing of such visual

3

depiction involves the use of a minor engaging in sexually

4

explicit conduct and, B, such visual depiction is of such

5

conduct.

6

What Mr. Clarke allegedly received based on the

7

government's case meets the requirement of subsection A,

8

but not of subsection B because he did not receive in

9

interstate commerce a visual depiction of such conduct and

10

I believe in the government's proposed jury instruction

11

they say the visual depiction must portray such conduct.

12

I believe that's the standard language and I disagree with

13

the government that the person could not be convicted of

14

downloading child pornography based on a peer-to-peer

15

network such as this, and simply that a person would in

16

that scenario possess such child pornography but would not

17

have received it.

18

So I'm relying on the plain language of the

19

statute as well as the definition of a visual depiction

20

contained in 2256, which defines a visual depiction as

21

undeveloped film and videotape, data stored on a computer

22

disk or by electronic means which is capable of conversion

23

into a visual image and data which is capable of

24

conversion to a visual image that has been transmitted by

25

any means whether or not stored in a permanent format.

A000023

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

440
1

We can't know, since we don't have it, what the

2

pieces that Mr. -- on their own, the pieces that

3

Mr. Clarke allegedly received would turn into on their

4

own.

5

become a visual depiction of a minor engaged in sexually

6

explicit conduct.

7

but people can often receive the various ingredients of a

8

bomb and not be guilty of any crime unless they have put

9

them together.

10
11

It is only when they are all put together that they

Just as, your Honor, bombs are illegal

It's the same sort of situation, and I'm relying
on the plain statutory language.

12

THE COURT:

13

MR. BODE:

Anything else?
The only thing I would note, your

14

Honor, is if we are going to do analogies, counsel's

15

reading would also kill wire fraud of any wire fraud

16

involving e-mails because e-mails are generally broken up

17

into little pieces, sent through the internet, and

18

reassembled.

19

So counsel would also, without any basis in any

20

case law, ask your Honor to kill all the wire fraud

21

statutes as well.

22

THE COURT:

The motion by the defendant to

23

dismiss the counts in this indictment which are for

24

transportation of child pornography, counts one and two,

25

receipt of child pornography, counts three through six,

A000024

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

441
1

and I'm reading from the last superseding indictment, and

2

possession of child pornography, well, it's clear here

3

that this search revealed all these computers, laptops,

4

hard drives, and that they were analyzed and loaded with

5

child pornography which under the internet comes as a

6

matter of law counts as interstate commerce.

7

The proof is very clear that the government has

8

made out a strong prima facie case of receipt,

9

transportation and possession of child pornography, and I

10

deny all the motions by the defendant.

11

all seven counts to the jury.

I'm going to give

12

Anything else at this time?

13

MR. BODE:

14

One more thing I would like to put on the

Yes, your Honor.

15

record.

16

We heard from counsel that the defense rested.

17

make sure we put on the record that they have spoken with

18

Mr. Clarke about his right to testify and that Mr. Clarke

19

is choosing not to do so and we put that on the record.

20

I would like your Honor to inquire of Mr. Clarke.

MS. FELDER:

I want to

Your Honor, Mr. Clarke has elected

21

not to testify.

We advised him of his right to do so and

22

he decided not to testify.

23

He's been fully informed, your Honor.

24

THE COURT:

25

Anything else?

Very well.

A000025

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

